                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 1-09100060
                                                                                1         Page 1 of 1



         This investigation was initiated pursuant to an allegation that a PI' had improperly named a
         collaborate? on a proposal3without permission. The PI provided a letter of support fiom the
         collaborator that had not been included with the original proposal.

         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
